<html>
<title> - PROPOSED SMALL ARMS TRANSFERS: BIG IMPLICATIONS FOR U.S. FOREIGN POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
PROPOSED SMALL ARMS TRANSFERS: BIG IMPLICATIONS FOR U.S. FOREIGN POLICY

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2019

                               __________

                           Serial No. 116-17

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-614 PDF                WASHINGTON : 2019                             
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   AMY WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TED BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                                      

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                     AMI BERA, California, Chairman

ILHAN OMAR, Minnesota                LEE ZELDIN, New York, Ranking 
ADRIANO ESPAILLAT, New York              Member
TED LIEU, California                 SCOTT PERRY, Pennsylvania
TOM MALINOWSKI, New Jersey           KEN BUCK, Colorado
DAVID CICILLINE, Rhode Island        GUY RESCHENTHALER, Pennsylvania

                                     
                                     
                                     

                   Nikole Burroughs , Staff Director
                   
                            C O N T E N T S

                              ----------                              
                                                                   Page

     MATERIALS SUBMITTED FOR THE RECORD FROM REPRESENTATIVE ZELDIN

Letter from the National Sports Shooting Foundation submitted by 
  Representative Zeldin..........................................     5

                               WITNESSES

Torres, Honorable Norma J., a member of Congress.................    10
Abramson, Jeff, Senior Fellow Arms Control and Conventional Arms 
  Transfers, The Arms Control Association........................    15
Waltz, Dr. Susan, Professor, Gerald R. Ford School of Public 
  Policy, University of Michigan.................................    24
Reeves, Johanna, Executive Director, F.A.I.R. Trade Group........    29

 ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD FROM REPRESENTATIVE LIEU

CNN article entitled ``Trump's New Gun Export Rules Could Aid 
  Terrorists, Tyrants, and Criminals.''..........................    46

                                APPENDIX

Hearing Notice...................................................    56
Hearing Minutes..................................................    57
Hearing Attendance...............................................    58

                   OPENING STATEMENT OF CHAIRMAN BERA

Opening statement submitted for the record from Chairman Bera....    59

    ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD FROM CHAIRMAN BERA

Photos submitted for the record from Chairman Bera...............    65

          MATERIALS SUBMITTED FOR THE RECORD FROM MR. ABRAMSON

Photo submitted for the record from Mr. Abramson.................    67

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from Chairman 
  Bera...........................................................    68


PROPOSED SMALL ARMS TRANSFERS: BIG IMPLICATIONS FOR U.S. FOREIGN POLICY

                        Tuesday, March 26, 2019

                           House of Representatives
       Subcommittee on Oversight and Investigations
                       Committee on Foreign Affairs
                                                     Washington, DC

    The committee met, pursuant to notice, at 10:02 a.m., in 
Room 2200 Rayburn House Office Building, Hon. Ami Bera 
(chairman of the subcommittee) presiding.
    Mr. Bera. This hearing will come to order. The hearing 
titled Proposed Small Arms Transfers: Big Implications for U.S. 
Foreign Policy will focus on the implications of the Trump 
Administration's proposal to transfer approval for small arms 
sales from the State Department to the Commerce Department.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitations in the rules.
    I will now make an opening statement and turn it over to 
the ranking member for his opening statement.
    And hopefully Mr. Zeldin will make it to the hearing soon. 
We have 2 panels today. If Mr. Zeldin does not make it in time 
after I finish the opening statement, we will turn it over to 
Congresswoman Torres, for her statement.
    So, let's frame this hearing and why I think this is an 
important topic. When we are thinking about this, this is not a 
hearing about gun control. There is already a decision that we 
will be selling, exporting small arms, regardless of what my 
personal opinion might be or the opinion of others. That is not 
what this hearing is about.
    In addition, this hearing is not meant to be a criticism of 
the Trump Administration. That is not what we are talking about 
here as well, since the Obama Administration actually 
contemplated a similar rule change and then made the decision 
not to go through with it. What this hearing really is about is 
something that I think we can all agree on--Democrats and 
Republicans. When we choose to export these weapons, we want to 
make sure that they are going to legitimate allies, that they 
are being used for legitimate purposes, and that they are being 
used by our friends.
    We also want to make sure we have a thorough vetting 
process to make sure the weapons are not being used to commit 
human rights atrocities. We need to ensure that we have 
mechanisms in place to ensure they end up where they were meant 
to be shipped. And since this is the Oversight Committee, we 
also want to make sure Congress has appropriate oversight and 
the abilities, and there is a congressional notification 
process.
    Now, we have been exporting more and more arms to Latin 
American countries, particularly those in the Northern 
Triangle. And if I can have the first slide.
    If you look at this slide, again, you will see it is not 
just under the Trump Administration. You will see the exports, 
both to Mexico where we have seen a rise in violence, but also 
to the Northern Triangle countries, and that has been going up 
over the last few years. And the reason why I am choosing to 
focus in a little bit on the Northern Triangle countries is, 
when we think about the crisis we are having on our southern 
border right now, it is in part because of the rise of violence 
in these 3 countries.
    If you look, there were 110,000 asylum seekers in 2015 from 
the Northern Triangle. That was a 5-fold increase from 2012. In 
2016, 42 percent of those apprehended at the southern border 
came from the Northern Triangle. These countries rank in the 
top 10 for homicides. Doctors Without Borders, doing a survey 
of Northern Triangle citizens in Mexico, said 40 percent had 
relatives who had been killed in the last 2 years; 31 percent 
knew someone who had been kidnapped.
    Again, look at that graph and look at the exports of small 
arms to those countries. That is the reason I believe we should 
be having a process to make sure we are not inadvertently 
creating the chaos in the Northern Triangle, we are not 
inadvertently creating that unrest, because when I think about 
addressing the crisis at the southern border, these are 
individuals that are human beings.
    They are just choosing to try to find a better life for 
themselves. They are fleeing that violence. And if we do not 
address it in the countries there and try to create some 
stability and find solutions in the Northern Triangle, we will 
have to do it at our borders.
    Now, State can do a better job ensuring arms do not fall 
into the wrong hands, but removing oversight mechanisms will 
increase the probability these weapons are being misused to 
create further violence.
    Again, I will acknowledge that all of us want to prevent 
U.S.-manufactured weapons from ending up being used against 
civilian populations and human rights abuses. In fact, in the 
Philippines, security forces have committed thousands of 
extrajudicial killings. According to the Simpson Center, the 
U.S. has sold some $2 billion in arms to the Philippines, and 
it is likely American-made pistols have been used in many of 
these killings.
    What we are talking about today is what department has the 
best mechanism to control this, and both Commerce and State 
have different approval processes for arms exports. The U.S. 
Munitions List administered by the State Department under the 
Arms Control Act provides more control over arms exports than 
the Commerce Control List.
    It requires sales advance our foreign policy objectives and 
the national interest. Sales must be for friendly countries, 
solely for the use of internal security, legitimate self-
defense, or to participate in U.N. efforts to restore 
international peace and security.
    Additionally, it requires annual registration of 
manufacturers, exporters, and brokers of defense articles or 
services. It ensures no security assistance is provided to 
countries with a pattern of internationally recognized human 
rights abuses. Under the Administration's plan, many small arms 
would be transferred to the new 500 Series of the Commerce 
Control List from the U.S. Munitions List.
    Although the Department of Commerce would still conduct 
interagency review before approving a small arms export 
license, there will still be significant shortcomings as 
compared to the State Department review. Philosophically, 
Commerce and State differ. State has to have the big picture 
foreign policy considerations and human rights considerations 
in mind. Commerce aims to boost our exports.
    In addition, no annual registration of manufacturers, 
exporters, and brokers of defense articles or services would be 
required, if this rule change were to go through. There would 
not be a specific criterion for human rights abuses. Items on 
the U.S. Munitions List currently require congressional 
notification for small arms sales over $1 million.
    This goes away with the transfer of these items to 
Commerce. And, again, that is not to say State Department is 
perfect. A State OIG report requested by the office responsible 
for export control licensing found that the office had not 
followed proper internal controls, and that licensing personnel 
were not properly trained. And this, in some ways, was 
attributed to a 28 percent reduction in staffing.
    So as we kind of go through this hearing, I think it is 
important for us to--again, it is not a hearing on gun control. 
It is not a hearing on whether we will be exporting small arms 
or not exporting small arms. But it is a hearing on the proper 
way to make sure these arms are ending up where they are 
supposed to end up, that we are selling these to friends, 
allies, and that they are not being used to commit human rights 
atrocities.
    And with that, I want to acknowledge our colleague, 
Congresswoman Norma Torres. I also want to acknowledge the 
witnesses on the second panel.
    And with that, I will turn it over to the ranking member. 
The ranking member is now recognized for 5 minutes to deliver 
his opening remarks.
    Mr. Zeldin. Thank you, Mr. Chairman, and thank you to all 
of our witnesses who will be testifying today on the decision 
to transfer certain defense articles and services from State to 
Commerce that began in the prior Administration. This was part 
of a larger interagency process to modernize the United States 
Munitions List to ensure the State Department retained 
oversight over only the most critical military and defense 
articles with military end use.
    This rule was supposed to be rolled out in December 2012. 
This rule change had strong bipartisan support but got caught 
up in a domestic gun control debate that had nothing to do with 
export control reform. The process to remove certain defense 
articles has already begun. In fact, here are just some of the 
categories of weapons that have already moved to Commerce 
licensing controls--launch vehicles and missiles, explosive, 
military aircraft, submersible vessels, tanks, and the list 
goes on.
    Once again, these defense articles have already moved to 
Commerce control. The jurisdictional transfer of certain 
defense articles in Categories I, II, and III, to Commerce will 
reduce the regulatory burden on State to create a simpler and 
more robust system of compliance. And the U.S. Government is 
not removing export controls for firearms or ammunition.
    Commerce still requires that U.S. companies obtain a 
license to export or re-export to any country any weapon 
currently on the Commerce Control List, a function it already 
performs. Any licenses that include these transferred items 
would still be reviewed by the State Department.
    Additionally, the government--that is, both State and 
Commerce--will continue its longstanding end use monitoring 
efforts, including vetting of potential end users, to help 
prevent human rights abuses. This rule change should be 
finalized. After years of input from both sides of the aisle to 
make the change from State to Commerce, there is no reason this 
decision needs to be delayed any longer.
    I ask unanimous consent that the following letter from the 
National Sports Shooting Foundation be submitted for the 
record.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Zeldin. And if I may yield 1 minute to Mr. Perry of 
Pennsylvania.
    Mr. Perry. I thank the chairman and the ranking member. I 
hope that we have a robust conversation this morning about our 
export control system and the ways we can make it more 
effective and efficient.
    In 2009, the Obama Administration launched the Export 
Control Initiative with the goal to strengthen our national 
security and increase the competitiveness of U.S. manufacturing 
and technology sectors. The Administration rightfully 
determined that our then-export control system was overly 
complicated, contained too many redundancies, and an overly 
protective posture diminished our ability to focus our efforts 
on the most critical national security priorities.
    I am disappointed that this common sense, good government, 
and bipartisan, or should I say once-bipartisan issue has been 
politicized, and our domestic industries will continue to be 
unduly overregulated until the government takes action. The 
proposal we are about to discuss is the epitome of this 
politicization.
    This bill does not provide ideas of how we can better 
regulate the export of defense articles or lift the burdensome 
regulations and registration fees our domestic industry is 
suffering under. Instead, it proposes to completely stop this 
conversation and halt the actions that the current and former 
administrations embarked upon to create a better export system. 
We must work together and propose ideas that will create a more 
effective export control regime.
    I look forward to this discussion and hope that we can once 
again come to a bipartisan agreement on export controls that 
protect our national security, our constitutional rights, and 
our constitutional rights while promoting American industries. 
And I yield.
    Mr. Zeldin. Thank you, Mr. Perry, and I yield back to the 
chair.
    Mr. Bera. Great. Thank you, Mr. Zeldin.
    I am pleased to announce and welcome our witnesses to 
today's hearing. We are first joined by my friend and fellow 
Californian, the Honorable Norma Torres. She will give 5 
minutes of remarks and then depart because I know you have got 
another hearing to get to.
    Following that, we will be joined by our second panel. Jeff 
Abramson serves as a senior fellow for arms control and 
conventional arms transfers for The Arms Control Association. 
Dr. Susan Waltz is a professor at the Gerald R. Ford School of 
Public Policy and the University of Michigan. Finally, Ms. 
Johanna Reeves is an attorney and executive director of the 
Firearms and Ammunition Import/Export Roundtable, F.A.I.R. 
Trade Group.
    I ask that the witnesses limit their testimony to 5 
minutes. And without objection, your prepared statements will 
be made part of the record.
    Thank you so much for being here today. I now ask Ms. 
Torres to summarize her remarks.

    STATEMENT OF THE HONORABLE NORMA J. TORRES, A MEMBER OF 
                            CONGRESS

    Ms. Torres. Good morning, and thank you, Mr. Chairman, and 
Mr. Ranking Member, distinguished members of the subcommittee. 
Thank you for the opportunity to provide testimony today. It is 
good to be back in the Foreign Affairs Committee.
    Across the world, firearms are used to kill people in a 
range of settings--the armed conflict in Syria, turf battles 
between drug cartels in Mexico, the repression of public 
protest in Venezuela, and terrorist attacks in a mosque in New 
Zealand.
    Whatever our views on firearms policy, we should all be 
able to agree that putting more firearms in the wrong hands 
would make the world a more dangerous place. Some of the most 
urgent challenges facing this committee-addressing the root 
causes of migration from Central America, defeating ISIS, 
ending the scourge of human trafficking--are more difficult 
because dangerous people have firearms.
    Failure to address these challenges will not only pose 
risks to the safety of U.S. service members and citizens 
abroad, but will also impact our homeland in the form of 
increased migration, terrorism, and crime.
    That is why I am so concerned about this Administration's 
plan to change our firearms export licensing system. Under the 
status quo, if a U.S. company wants to export firearms, the 
company needs to apply for a license from the State Department, 
which will weigh the risks of that sale before granting a 
license. If the sale is over $1 million, the appropriate 
congressional committees, including this committee, receive a 
notification and can review the sale before it moves forward.
    The system is not perfect; I get that. For example, the 
State Department should have more resources to track where 
firearms are used, and to carry out due diligence on recipients 
before the sales are approved.
    Sadly, the Administration is taking the opposite approach--
proposing to move licensing authority from the State Department 
to the Commerce Department. This is a bad idea for several 
reasons. I will describe just a few of them here.
    First, the Commerce Department has different priorities, a 
different mission, than the State Department. If Commerce is 
making the final decision on firearm exports, I worry that they 
will do what is best for firearm manufacturers, even if it puts 
our national security at risk. When it comes to keeping 
firearms out of the hands of terrorists and drug cartels, we 
should err on the side of caution. That means keeping the State 
Department in charge.
    Second, the Commerce Department is not required to notify 
Congress before a sale proceeds. That means this committee 
would lose the ability to object to sales that raise national 
security or human rights concerns. It also means that Congress 
would be in the dark about where guns are going. This would be 
very dangerous, as it would undermine Congress' ability to 
conduct effective oversight.
    Third, taking on this new responsibility would require 
significant additional staff time and expertise at the Commerce 
Department's Bureau of Industry and Security, but this 
Administration has not provided Congress with a plan for 
increasing the Bureau's capacity.
    For these and other reasons, many experts and Members of 
Congress have expressed their deep concerns about this change. 
I am glad that Senator Menendez has placed a hold on the rule.
    To permanently block the Administration's dangerous 
proposal from moving forward, I urge this committee to consider 
a markup of my legislation, the Prevent Crime and Terrorism 
Act.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Torres follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr. Bera. Thank you, Ms. Torres.
    We will now briefly recess, so that the second panel can be 
seated.
    [Recess.]
    Mr. Bera. Thank you. We will now reconvene.
    I will first go to Mr. Abramson.

  STATEMENT OF JEFF ABRAMSON, SENIOR FELLOW ARMS CONTROL AND 
   CONVENTIONAL ARMS TRANSFERS, THE ARMS CONTROL ASSOCIATION

    Mr. Abramson. Good morning, Chair Bera and Ranking Member 
Zeldin and other members of the committee. It is a privilege to 
testify before this committee today and discuss concerns about 
how the United States exports some of the weapons most used in 
violence around the world and proposed changes that I fear 
could lead to greater human suffering.
    My comments here are an abbreviated version of my longer 
written testimony. In brief, the weapons and ammunition that 
are currently controlled under U.S. Munitions List Categories I 
to III belong there and should stay there. There are many 
concerns about the administration's proposal to move 
semiautomatic and select other weapons from State Department 
regulatory control of military weapons to the Commerce 
Department's control of so-called dual-use items.
    Rather than transfer responsibility to an arm of the 
executive branch whose mission is to promote sales and for 
Congress to abdicate oversight, the best way to move forward is 
to strengthen the State Department's capacity and for Congress 
to better use its authority.
    We commend Representative Norma Torres and co-sponsor Eliot 
Engel for introducing H.R. 1134, which a number of members of 
the subcommittee have also now co-sponsored, and Senator 
Menendez for introducing S. 459, which keep the control lists 
from changing.
    These legislative efforts have the backing of a wide range 
of civil society organizations, including Amnesty International 
USA, Brady, Giffords, Global Exchange, the Violence Policy 
Center, and the Arms Control Association, where I am a senior 
fellow.
    The proposed regulatory changes are problematic for several 
reasons, many of which have already surfaced so far. First, the 
type of weapons pictured here this Administration wants to 
remove from State Department review and congressional 
notification actually merit the tightest export control. 
Research indicates that AR-and AK-type rifles and their 
ammunition are weapons of choice of drug trafficking 
organizations in Mexico and other Central American countries.
    Many can also be easily converted to fully automatic 
weapons. Many sniper rifles that would be moved to Commerce 
control are currently in U.S. military use. And as in the Sig 
Saver advertisement from this year's catalog, many of these 
weapons are marketed domestically as ``featuring the same 
innovation and versatility as the U.S. Army's available in a 
civilian version.''
    Second, the fact that these weapons may be widely available 
in the United States does not mean they should be widely 
exported. In many of the countries where these weapons are 
likely to be marketed, they are considered military weapons and 
are tightly controlled. The fact is that anyone can build their 
own army with guns you can buy retail in the United States.
    While the rationale for the shifting to Commerce was that 
the State Department should focus on weapons that provide the 
United States with a critical military or intelligence 
advantage, or that are inherently for military end use, drawing 
that distinction in this case does not match the realities of 
the world.
    Third, by shifting licensing authority to the Commerce 
Department, these weapons will be removed from the statutory 
regime devised for them by Congress. This has significant 
implications because there are a number of counterterrorism, 
humanitarian, and human rights provisions of the Foreign 
Assistance Act and the Arms Export Control Act that are tied to 
the State Department's control list.
    To begin with, Congress will not be notified of the sale of 
these weapons. In recent years, congressional involvement has 
helped forestall firearms transfers to repressive forces in 
Turkey and the Philippines, but it is difficult to imagine how 
Congress could do that moving forward if never provided the 
information that such sales were under consideration.
    My longer testimony details how the current regime provides 
requirements for suspension of future sales, reporting of 
misuse to Congress, and other critical capabilities for 
identifying and enabling prosecution of bad actors that will be 
threatened or lost under a Commerce-controlled system.
    Unfortunately, we know abuses of U.S.-supplied weapons will 
occur as in Guatemala last year when that government used U.S.-
donated military vehicles to surround the U.S. Embassy as seen 
here, and as with Saudi Arabia and the United Arab Emirates who 
reportedly transferred U.S. weapons to al-Qaeda linked militias 
in Yemen. Under State Department authority, Congress will 
simply have greater awareness and ability to act on such abuse.
    Fourth, the Commerce-led approach is different than that of 
the State Department and creates new risks, including capturing 
less information in licensing requests, a different end use 
monitoring approach, lack of enforcement personnel in the 
Western Hemisphere, exemptions and broad implications for the 
proliferation of untraceable ghost guns and 3-D printed guns 
for which the Commerce Department is expected to abandon 
control efforts. Many of these differences are detailed in a 
recent Government Accountability Office report.
    Looking ahead, the United States is far and away the 
world's largest arms exporter, and as such, can and should 
uphold the highest standards. That begins with Congress 
continuing to receive arms sales notifications, so that they 
are informed and are able to act. Congress can also play a role 
in improving transparency in the State Department-led direct 
commercial sales process through which the majority of small 
arms sales occur.
    Congress can block or amend the sale up until weapons are 
delivered, and it is important for Congress to scrupulously 
monitor the entire process. Congress should also mandate much 
greater transparency on the specifics of what is in U.S. 
weapons deliveries.
    Finally, this committee, with its oversight over the State 
Department, should consider looking into the hollowing out of 
this critical part of the executive branch. As already 
mentioned, an alarming Office of the Inspector General report 
last month found that the Directorate of Defense Trade Controls 
did not implement sufficient internal controls.
    While proponents of the rule changes argue that Commerce is 
better staffed, the State Department has the most appropriate 
expertise to consider the human rights, security, and political 
implications of arms transfers. If further investment is needed 
to improve State's capabilities, that is the correct path to 
explore.
    Wrapping up, we must be mindful that we are not talking 
about benign trade commodities, but, rather, the types of 
killing machines that are arguably the ones most responsible 
for death and injury worldwide. In the words of Maria Herrera 
of Mexico, 4 of whose sons were forcibly disappeared by heavily 
armed men, ``They have their gun factories and they send them 
here as if they were pears or apples. They should think about 
the damage and destruction these weapons bring.''
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Abramson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

      
    Mr. Bera. Thank you, Mr. Abramson.
    Ms. Waltz.

  STATEMENT OF SUSAN WALTZ, PH.D., PROFESSOR, GERALD R. FORD 
        SCHOOL OF PUBLIC POLICY, UNIVERSITY OF MICHIGAN

    Ms. Waltz. Thank you, Chairman Bera, Ranking Member Zeldin, 
and members of the subcommittee. I want to thank you for the 
opportunity to testify about the proposal to remove certain 
weapons from the U.S. Munitions List. In a nutshell, I am 
concerned that we are on the verge of unraveling an 
interlocking set of policies that are intended to prevent 
exported U.S. weapons from falling into unintended hands where 
they can be used for human rights abuse and criminal activity.
    I have long been associated with Amnesty International, and 
my remarks are informed by its published human rights research. 
In an internal review that was undertaken about 10 years ago, 
Amnesty International found that some 60 percent of the grave 
human rights abuses it had investigated involved firearms.
    If that inventory were to be updated today, it would 
include, for example, the recent cold-blooded execution of 
civilians by uniformed Cameroon soldiers--an event that 
prompted the U.S. to withdraw millions of dollars of military 
aid earlier this year. It would also include Philippines, where 
since 2016 the government has encouraged targeted political 
killings that have claimed more than 4,000 lives in operations 
specifically conducted by the police.
    My concerns about the proposal under consideration were 
only heightened last month when the State Department released 
its audit report about a 2017 of 400,000 semi-automatic rifles 
to Philippines, a sale that never should have been licensed and 
for which the license was ultimately revoked.
    In my remarks today, I want to make 3 key points. First, 
the proposed regulatory changes seek to draw a bright line 
between fully automatic weapons on one hand and semi-or non-
automatic weapons on the other. And in human rights situations 
where it really matters, this is a distinction without a 
difference. It is a false dichotomy.
    In practical reality, there may be little difference 
between the semi-and fully automatic types of firearms. A semi-
automatic firearm can fire about 45 rounds a minute, and non-
automatic sniper rifles can shoot with great accuracy over long 
distances.
    These are powerful lethal weapons. The soldiers in Cameroon 
last summer used semi-automatic rifles. In Mexico, the local 
police in Guerrero State that were responsible for the enforced 
disappearance of 43 students in 2014 were armed, again, with 
semi-automatic rifles.
    The point here is that in many perilous human rights 
situations the weapons that are slated for transfer to the 
Commerce Control List are every bit as threatening as fully 
automatic weapons. The bright line, as I have said, proposed by 
the Administration makes a distinction without true difference.
    And, second, there is more to the proposed regulatory 
changes than first meets the eye. What is ultimately at stake 
here--and this is I think a crucial point for the committee--is 
which rules, which laws will apply to the exports of these 
small but lethal weapons.
    Over the years, Congress has embedded important human 
rights provisions in 2 key statutes--the Arms Export Control 
Act and the Foreign Assistance Act. And the provision of these 
laws, generally speaking, apply only to defense articles as 
defined by their presence on the U.S. Munitions List.
    So if you remove these weapons from that particular list, 
then ipso facto you exempt them from the related statutory 
constraints, and therein lies the rub. These various statutory 
controls are tied together in an elaborate legislative 
architecture that in the past 15 years American officials have 
touted as the gold standard of arms export laws and 
regulations.
    The ``cradle to grave'' control system that we have 
promoted internationally includes multiple statutory 
requirements, including, among others, a multi-step 
registration and licensing procedure for exporters that 
provides several opportunities to detect irregular aspects of 
an application. It requires, as has been noted, congressional 
notification of firearm sales that exceed $1 million. It 
includes tough controls on brokering and the possibility of 
both pre-and post-shipment review through the State 
Department's Blue Lantern Program.
    So together these provisions constitute a robust oversight 
mechanism. And without mitigating action from Congress now, the 
straightforward and seemingly innocuous act of transferring 
items from one regulatory regime to another would essentially 
nullify the export laws as they apply to non-automatic and 
semi-automatic weapons in one fell swoop.
    My final point relates to a specific concern about the 
regulation of firearms brokering and human rights implications. 
I do not have time to go into details now, but let me just say 
that brokering activities, which by statute are defined as 
financing, transport, and freight forwarding, are understood by 
human rights advocates to be the weakest link in the chain of 
regulatory controls.
    And it is of note that in the case of the 2017 Philippines 
sale it was an issue with the middlemen in Florida that alerted 
U.S. Embassy personnel to the likelihood that something was 
awry with that transaction.
    In closing, I want to say that I am not opposed in 
principle to export control reform, but it strikes me that 
these particular regulatory changes are irresponsible. As far 
as I have been able to ascertain, these are the only complete 
lethal weapons that are being transferred to the Commerce 
Control List.
    In December 2000, the U.S. pledged to the world that we 
would observe the highest standards of restraint in our small 
arms export policies, and these proposed changes betray that 
pledge.
    The best course of action, in my view, would be to retain 
the current range of firearms on the U.S. Munitions List by 
supporting H.R. 1143. And failing that, I would urge you to 
amend the statutes to ensure that the weapons transferred to 
the Commerce Control List would be included in the statutory 
definitions of defense articles and security assistance.
    Thank you very much for your attention and the opportunity 
to share these concerns.
    [The prepared statement of Ms. Waltz follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Mr. Bera. Thank you, Professor Waltz.
    And Ms. Reeves.

STATEMENT OF JOHANNA REEVES, EXECUTIVE DIRECTOR, F.A.I.R. TRADE 
                             GROUP

    Ms. Reeves. Good morning and thank you. Chairman Bera, 
Ranking Member Zeldin, and other distinguished members of this 
subcommittee, thank you for inviting the F.A.I.R. Trade Group 
to testify today on this important issue of reform to our 
export control regulations and the perceived impact such reform 
may have on our national security and foreign policy.
    The Firearms and Ammunition Import/Export Roundtable, or 
F.A.I.R. Trade Group, is made up of firearms and ammunition 
manufacturers, importers, and exporters who serve both civilian 
and government customers. We work closely with U.S. Federal 
agencies to improve regulations governing the import and export 
of firearms, ammunition, and other similar articles.
    The proposed rules that are at the heart of today's hearing 
are to transition commercially available firearms from the 
export controls of the U.S. Department of State's International 
Traffic in Arms Regulations, or ITAR, to the controls of the 
U.S. Department of Commerce known as the Export Administration 
regulations, or EAR.
    Since the publication of the proposed transition rules, 
there has been a plethora of misinformation and 
mischaracterizations. First, the proposed transition rules are 
not a de-control of manufacture, transfer, or export of 
firearms or ammunition. The proposed changes are part of an 
effort to reform outdated regulations and right size our export 
control system--an effort that started under President Obama in 
2010.
    The proposed shift in oversight responsibility is long 
overdue and will help strengthen the national security of the 
United States by ensuring the exporting licensing authorities 
can focus on those items that warrant control under the ITAR 
rather than waste resources on export licensing for springs and 
bolts or for items that are available in sporting goods stores 
and retail outlets.
    Not all firearms and ammunitions are slated to transition 
to the Commerce Controls. The firearms that will remain under 
the Department of State are those that are inherently military, 
including fully automatic firearms, modern large-caliber 
munitions, such as mortars and howitzers, high-capacity 
magazines and drums, and all specially designed parts and 
components for those articles.
    For the firearms and ammunition that will transition over 
to the Department of Commerce, this is not a de-control or a 
deregulation of those articles. Under the EAR, exports and 
license applications for firearms and ammunition will be 
subject to controls under national security, regional 
stability, crime control and detection, the Firearms 
Convention, United Nations sanctions, and anti-terrorism.
    Indeed, the proposed rules make it abundantly clear that 
the Commerce Department will require a license to export or re-
export firearms or ammunition to any country, including Canada.
    The proposed changes are to licensing processing, not 
policy. End use monitoring will continue under the Commerce 
Department, including vetting of potential end users. In 
addition, the State Department, as well as the Department of 
Defense, will remain very involved in the review of export 
license applications for national security and foreign policy 
reasons, pursuant to the Export Control Reform Act.
    Further, the Commerce Department will not approve any 
license application if the export will violate the laws of the 
destination country.
    Another myth is that the Department of Commerce does not 
have the capability to control firearms or ammunition exports. 
This is not true. The Office of Export Enforcement is the only 
Federal law enforcement agency exclusively dedicated to the 
enforcement of export control laws, specifically the EAR, and 
does so to protect the national security, foreign policy, and 
economic interests of the United States.
    OEE works closely with the Department of Justice to 
prosecute criminal violations and with the Office of Chief 
Counsel for Industry and Security for civil enforcement cases. 
This reform to our export control system is long overdue. 
Because of the age and wide-scale availability of the 
underlying technology, many firearms and ammunition do not have 
the characteristics that provide critical military advantage to 
the United States, nor are they exclusively available from the 
United States.
    Unfortunately, the current policies and regulations have 
prevented the U.S. firearms and the ammunition industries from 
becoming reliable suppliers to our allies and, in general, 
competing effectively in the global marketplace.
    We, therefore, urge Congress to permit the right sizing of 
the outdated one-size-fits-all export policy for firearms and 
ammunition, so that these industries may be regulated like the 
other defense sectors that have experienced export control 
reform.
    This reform will not result in the de-control of firearms 
and ammunition, and it is critical to the positioning of our 
manufacturers in the world market and, thus, our national 
security.
    Chairman Bera, Ranking Member Zeldin, and other 
distinguished members of this subcommittee, this concludes my 
testimony on behalf of the F.A.I.R. Trade Group. Thank you for 
the opportunity to speak today, and I welcome your questions.
    [The prepared statement of Ms. Reeves follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Bera. Thank you, Ms. Reeves. And thank you to all of 
the witnesses for being here.
    Mr. Abramson, in your opening remarks you touched on 
something about 3-D printing rules, and so forth. And I think 
this is an important component that we ought to touch on. 
Within State Department, when 3-D printing and how to make a 
gun that was undetectable was going to be posted on the 
internet, the State Department put a stop to it.
    Now, there was a lawsuit that was filed with that, and 
State Department settled it. But right now that lawsuit is 
being contested by about 20 state attorney generals. What we 
are told is if this rule change goes through, Commerce will not 
enforce, the ruling not to post this on the internet.
    We do not know how this lawsuit is going to get settled, 
but I do think, from an oversight perspective I have some 
concern, and I think this body ought to have some concern, as 
to whether we think it is a good idea for people to post how to 
make a 3-D printed gun that might not be detectable. That puts 
our kids at risk. That puts all of us at risk.
    All of you had to go through security screening when you 
came into this building. Again, from my end, I do not think it 
is a great idea for someone to figure out how to make a 3-D 
printed gun. That, hopefully, is something that we can work on 
in terms of trying to figure out how do we make sure that 
technology does not end up in the wrong hands.
    I just thought it was important for us to point that out, 
and I actually think State Department did the right thing. I am 
not thrilled that they settled this, and I am glad the state 
attorney generals have stepped up to try to prevent that 
posting.
    Again, this hearing is not about gun control, from my 
perspective. That is not the intent. It is also not about 
putting our manufacturers at a disadvantage to the rest of the 
world. I have long been an advocate for looking at our export 
control regime and making it a little bit more streamlined.
    In some of my dealings with other countries, and India in 
particular, there are items that do not make sense to be on the 
Export Control List, that, if they are not purchasing from us, 
they will be purchasing from others.
    My concern in this hearing--and what might happen with this 
rule_change is I want to make sure we are not treating everyone 
the same, that as we are interacting with countries that are 
allies, that share similar values, et cetera, that is one 
thing. But the reason why I focused on the Northern Triangle 
countries is in areas where we know there is an increase in 
violence, we know there is an increase in homicide, our values 
as Americans, and as leaders in the world and wanting to occupy 
the higher moral ground, we should not want you to think that 
our guns are contributing to that, or our small arms are 
contributing to that destabilization, particularly, as the 
President has pointed out, some of the crises on the southern 
border.
    If we do not try to address it in the countries that, are 
contributing to some of this migration, we will be addressing 
it on the souther border. And I think, again, as the world 
leader, we have a responsibility to try to address this.
    So maybe I will turn to either Mr. Abramson or Professor 
Waltz on this one. It does seem to me that there is, a lack 
of--once these arms are sold, to be able to trace whether U.S. 
arms are being used in some of these atrocities.
    Professor Waltz, you touched on, what happened in Cameroon 
and other places, and I think that is something that we ought 
to figure out. Whether that is State Department doing this, 
whether that is Commerce, whether it is an interagency process, 
but if atrocities are happening, are these U.S.-made arms that 
are being used in those atrocities?
    Ms. Waltz. I would say that this is the most difficult 
issue with regards to these weapons. They are small, and they 
come from many different places. And to try to do a ballistic 
analysis to figure out what weapon was used in what particular 
instance is really, really challenging.
    On top of that, trying to figure out whether the weapon was 
transferred in a lawful way or in an unlawful way makes it a 
really tricky issue to tackle, period. That is the reason why 
doing all of the due diligence up front to make sure that you 
have done as much as you possibly can to prevent the arms from 
going in the direction where they are going to end up in 
unintended hands is so important.
    We do have some examples of U.S. weapons being used--of 
weapons that were known to be transited from or supplied via 
U.S. channels that have ended up in hands, but very often these 
are not ones that were sold commercially. They were sold, 
perhaps transferred by U.S. military.
    But that is in many ways besides the point. The part that I 
think all of us are really concerned about is the prevention. 
What is the best system for keeping the weapons from getting 
out and into the wrong hands in the first place? The system 
that is now in place has a review at registration, a second 
review at licensing, and the possibility of going into a place 
and looking at the weapons.
    The last comment that I would make here is that while 
Commerce Department does have uniformed and armed officers, 
they do not actually have anyone on the ground in place 
overseas in the Northern Triangle of Central America. So they 
are really without the possibility of pursuing on the ground 
investigations at this point.
    Mr. Bera. Right. Well, I would love to work with the 
ranking member again, if we are selling small arms to Canada, 
it is one thing. If we are selling, small arms to Honduras, it 
might be another thing.
    And what I understand is it is better to be sure and do our 
due diligence on the front end to make sure where those weapons 
are going, and then at least on the back end having some 
ability to make sure they ended up in the right place. So I 
would love to work with you, Mr. Zeldin, on what that might 
look like.
    And with that, I will turn it over to the ranking member.
    Mr. Zeldin. Thank you, Mr. Chair.
    And, Ms. Reeves, is there anything that you would like to 
weigh in on the conversation I was just having--taking place?
    Ms. Reeves. I think one--regarding the registration point, 
I think it is important to notice that under the Gun Control 
Act manufacturers of firearms and ammunition must obtain a 
Federal firearms license from ATF. And the form to do that is--
it is an application for a Federal firearms license, and on 
that form manufacturers or would-be licensees must disclose all 
responsible persons who are at the company. And a responsible 
person is not a nomination; it is actually a role of the job 
function.
    So if you have the power to make decisions at the company 
pertaining to firearms or ammunition, you must be designated. 
The background check that goes into that licensing process is 
pretty extensive, and on the form itself it includes country of 
birth, it includes citizenship, and it includes addresses for 
the last 5 years.
    So in terms of registration, it is not a completely black 
hole because that will be covered domestically under the Gun 
Control Act for licensing.
    Mr. Zeldin. And how does the Commerce's license review 
process differ from State's?
    Ms. Reeves. Actually, not that much different because what 
will happen on the back end is when a license application is 
submitted, Commerce Department will take that license 
application and put it through an interagency review process. 
This is actually going to be required under the Export Control 
Reform Act.
    Part of those agencies include Department of Defense and 
the Department of State. The Department of State will refer 
everything to the Democracy, Rights, and Labor Bureau, DRL, so 
they will be intricately involved in reviewing license 
applications on the front end, and they will do so under 
foreign policy and national security.
    Mr. Zeldin. Do either of the 2 witnesses want to weigh in 
on that?
    Mr. Abramson. Yes, briefly. It is not a question in my mind 
of the Commerce Department suddenly wants weapons to end up in 
the wrong hands. I do not think that is the concern. Obviously, 
I have concerns about Commerce's approach, more toward sales, 
but the reality is the way the system is set up the State 
Department captures more information during the licensing 
process, and ICE officials and others have told us that that 
information is very helpful as a deterrent value, but also 
later for prosecutions.
    The State Department will have a role in the Commerce--if 
Commerce is taking control, but the State Department will not 
have the primary authority of making that decision. Commerce 
will still hold that, so the State Department's role will be 
lessened. But there is other pieces of this where the Congress 
will not be notified of misuse. That will happen if it is 
something that is controlled through the State Department.
    But when we go through the Commerce Department, you have 
different requirements about how the law is applied, so your 
oversight capacity will change. That is some of the big changes 
that we are talking about.
    Ms. Waltz. If I might add, the changes and the processes 
that we are talking about right now, once these items move off 
of the U.S. Munitions List and are no longer defined as defense 
articles, will no longer be mandated by law.
    It is all a matter of regulatory practice and procedures 
within the--and I think that that is a crucial point, because 
what is required--in the early years, in the 1970's, when some 
of this was set up, for 6 or 7 years the administrations did 
not follow the general guidance of Congress. It was not until 
it was locked into law that these became really enforceable 
provisions. And what we are really talking about is possibly 
exiting them from the legal requirements.
    Mr. Zeldin. I appreciate all 3 witnesses for that exchange. 
But, just to sum up some of the items that have already 
transitioned from U.S. ML to the CCL, Category IV, launch 
vehicles, guided missiles, ballistic missiles, rockets, 
torpedoes, bombs, and mines; Category VI, surface vessels of 
war and special naval equipment; VII, ground vehicles; IX, 
military training equipment; X, personal protective equipment; 
Category XIV, toxicological agents; Category XV, spacecraft and 
related articles; Category XVI, nuclear weapons-related 
articles.
    So it is just really important to note just how much of a 
transition has already been completed between U.S. ML and CCL. 
I appreciate the hearing and the conversation today, but, 
Commerce has already established quite a robust and proven role 
in many other pieces of equipment that, people would also 
suggest are consequential for this related debate as to context 
of this hearing. And I yield back.
    Mr. Bera. Yes. If I could just comment on the ranking 
member's observation, that last observation. I think, Professor 
Waltz, you talked about the difficulty of tracing and tracking 
small arms, which is why much of the due diligence I suspect 
has to be done on the front end, whereas if we are selling an 
aircraft carrier to a country, we can probably better track how 
that aircraft carrier is being utilized and used. So, but I 
appreciate that, I am glad that we made some of those.
    I will now turn to Mr. Malinowski for purposes of 
questioning the witnesses.
    Mr. Malinowski. Thank you, Mr. Chairman. Ms. Reeves, you 
mentioned the State Department's DRL Bureau. I ran the State 
Department's DRL Bureau, so I can speak a little bit to these 
questions. And when we were having this debate at the State 
Department in the last administration, there were arguments on 
both sides, but let me first attest the arguments have nothing 
to do with our domestic uncontrolled debate. They have to do 
with a broad understanding that violence against civilians 
around the world, mass violence by militias, by criminal 
terrorist organizations, by rapacious abuse of governments, is 
not committed by aircraft carriers. It is not committed by 
boats, largely not by planes or by tanks or by howitzers or by 
mortars. It is committed by small arms.
    The reality of places like Congo, Central America, Burma, 
is that small arms are the weapons of mass destruction of our 
time, and that is why we are very, very sensitive about getting 
this right.
    One case I was involved with involved the Philippines where 
we discovered an impending commercial sale of small arms, not 
to the Philippine government or Philippine police, but because 
we, in the State Department, had a thing called an Embassy in 
the Philippines and large numbers of people who monitored such 
things, we realized that the Philippine police was purchasing 
arms from the dealers to whom these small arms were going to be 
sold.
    This was at a time when the Duterte Regime--well, it is 
still doing so--was conducting a campaign of extrajudicial 
executions as part of its so-called drug wars, including a lot 
of innocent kids who were being rounded up, killed in the 
middle of the night by gangs that were actually police officers 
off duty.
    And so we made the decision at the State Department to 
freeze that sale. I can 100 percent guarantee to you that if 
the Commerce Department had the final say in that sale they 
would not have made the same decision because the Commerce 
Department's ethos, mandate, and mission was to support 
American manufacturers in their efforts to export their 
products. That is perfectly fine. That is exactly why the 
Commerce Department exists. The State Department exists to 
raise foreign policy, human rights, and national security 
considerations.
    So let me ask a few questions. Maybe, Mr. Abramson, Ms. 
Waltz, you can take the first few. Does the Commerce Department 
have personnel at U.S. embassies around the world that monitor 
these sorts of issues? Yes or no.
    Ms. Waltz. No.
    Mr. Abramson. No.
    Mr. Malinowski. Does it have any staff assigned to review 
firearms sales to Central America, the Philippines, 
Afghanistan, Congo, Cameroon, Sudan, any of the countries where 
these issues might be of concern?
    Ms. Waltz. It has a few--3 or 4 people stationed in various 
parts of the world, but none for Latin America. And I do not 
believe any for Africa as well.
    Mr. Malinowski. All right. And does it perform these due 
diligence checks, particularly on human rights, before a sale 
goes through?
    Ms. Waltz. It has not so far.
    Mr. Malinowski. So let me ask you, Ms. Reeves, you spoke in 
your testimony about outdated regulations. Is the requirement 
that Congress be notified of sales over $1 million an outdated 
regulation?
    Ms. Reeves. No, I would not call that an outdated 
regulation for items governed by the U.S. Munitions List.
    Mr. Malinowski. For small arms, for semi-automatic weapons. 
So if we were to sell 20,000 AR-15s to the Philippines, would 
it be an outdated regulation for Congress to be notified of 
that?
    Ms. Reeves. Well, one thing that I will point out is that 
the $1 million threshold only applies to small arms, and it is 
significantly different from the next highest threshold, which 
is $14 million. This, of course, affects significantly U.S. 
manufacturers from being able to ship to our allied 
governments, because when they have contracts that exceed that 
amount of money it is significantly delayed.
    Mr. Malinowski. So if the rules change goes through, would 
you support legislation that would impose the same $1 million 
threshold reporting requirement, even though it is going 
through the State Department for small arms?
    Ms. Reeves. I would have to see what the legislation is.
    Mr. Malinowski. Would you support legislation that would 
require the Commerce Department to do a review of the potential 
human rights implications of a sale before the sale takes 
place?
    Ms. Reeves. I think the legislation is already there. I 
think under the Export Control Reform Act there is a review 
process that is specified under the statute. And in the review 
process, DRL, State Department objections to a license would 
not be overruled.
    Mr. Malinowski. OK. Well, I can just--I will close by 
saying, in my experience, for any item or issue where the 
Commerce Department had the final say, under current rules--and 
I can say, for example, surveillance technology is a very good 
example of this, where there is a vote by a committee in which 
Commerce, DoD, and the State Department each have one vote.
    In literally every single case, in my experience, where the 
State Department did not have the final say, and the Commerce 
Department had either a vote or the deciding vote, the Commerce 
Department 100 percent of the time voted for the export of, 
say, surveillance equipment to dictatorships that were going to 
use them against dissidents, journalists, et cetera.
    Unless there is a change in the ethos, mission, and mandate 
of the Commerce Department, I have no reason to believe that 
that will change. And I would hope that the industry, in its 
own interest, would support maintaining a very robust review 
process, because if you do not have that, you are going to find 
yourselves caught up in front page stories about U.S. weapons, 
weapons manufactured by your members, being used for things 
that will outrage the American people, and people will wonder 
who is responsible. You need the State Department to protect 
you from them.
    Thank very much, Mr. Chairman.
    Mr. Bera. Thank you. And I will recognize Mr. Perry for 
purposes of questioning the witnesses.
    Mr. Perry. Thank you, Mr. Chairman.
    Ms. Reeves, are you familiar with the IRGC? Do you know who 
that is?
    Ms. Reeves. Yes.
    Mr. Perry. Are you familiar with the fact that the IRGC or 
components of those folks are driving around in Iraq in 
American-made M1 tanks?
    Ms. Reeves. Am I aware of that?
    Mr. Perry. Yes. I am just asking.
    Ms. Reeves. Yes.
    Mr. Perry. Yes. Right? And we are outraged by it, but the 
point--and do you suspect that a tank, an M1 tank, is 
significantly more lethal than, let's say, an AK-47 or an AR-
15?
    Ms. Reeves. That would be my assessment.
    Mr. Perry. That would be mine as well. So let me just--in 
the last--I think you characterized it--I do not know the exact 
date, but this transfer to the Commerce Control List. When did 
that start? When did that effort start?
    Ms. Reeves. 2010 is when it really started.
    Mr. Perry. 2010. Did you come to the Hill and testify in 
that regard?
    Ms. Reeves. No, I did not.
    Mr. Perry. And at all, between 2010 and now, have you come 
and testified?
    Ms. Reeves. No, I have not.
    Mr. Perry. Why do you suppose that when that action was 
being proposed under the previous administration there did not 
seem to be any aversion to it, but now there appears to be? Why 
do you suppose that is?
    Ms. Reeves. I think that is a really good question. My own 
perception is that it is a different landscape right now. It is 
highly political. I think that there is a lot of conflation 
between modernizing our export control laws and domestic gun 
control and gun control arguments.
    Mr. Perry. And in the context, I mean, look, I hate to 
bring this up, but I think it is important to bring this up, 
you are familiar with the Fast and the Furious----
    Ms. Reeves. Yes, I am.
    Mr. Perry [continuing]. Operation, et cetera.
    Ms. Reeves. Yes, I am.
    Mr. Perry. Even in the context of the previous 
administration and the--let me ask you this. How did that arms 
transfer take place, if you know?
    Ms. Reeves. That was a lawful--as far as I know, it was a 
combination of lawful transfers and also unlawful exports by 
non-U.S. persons purchasing weapons from licensed firearms 
dealers who were trying to get ATF involved in monitoring and 
preventing the transfers.
    Mr. Perry. Was the State Department involved?
    Ms. Reeves. Not that I know of.
    Mr. Perry. Was the Commerce Department involved?
    Ms. Reeves. Well, the State Department was involved in 
terms of the lawful exports that went down there.
    Mr. Perry. OK. But they still went, right?
    Ms. Reeves. Right. They did.
    Mr. Perry. They still went. And they are credited with 
killing not only people of a foreign country but American 
citizens; is that correct as well?
    Ms. Reeves. Correct.
    Mr. Perry. It seems to me that the current process, if that 
is allowed to happen, is certainly lacking for a lot of 
reasons, and it also seems to me that even in the face of that, 
at that time, nobody apparently--well, certainly you were not 
asked to come--and you are an expert in what you do, you are 
here now, but nobody at the time in Congress thought it 
important enough to bring you to testify and answer questions 
under that administration. But now that it is this 
administration, is the action significantly different under 
this administration than the previous one?
    Ms. Reeves. No. My understanding is that the proposed rules 
are largely unchanged from what was originally drafted. These 
categories were the first categories drafted.
    Mr. Perry. OK. And even under the Commerce Control List, 
national security, foreign policy, review of applications still 
takes place; is that correct?
    Ms. Reeves. Yes.
    Mr. Perry. Would they still be reviewed by the State 
Department for human rights, illicit trafficking, and other 
security concerns?
    Ms. Reeves. Yes.
    Mr. Perry. So it is essentially the same thing.
    Ms. Reeves. Yes.
    Mr. Perry. Just streamlining it. But because we have a new 
administration--my words, not yours--that we disagree with--
what before was OK is now not OK. That is--those are my--but 
you would tend to agree with them.
    Ms. Reeves. Yes.
    Mr. Perry. Do American small arms manufacturers sell 
abroad? I mean, is it a part of their--a significant part of 
their business profile and their ability to stay in business 
and make a profit and produce not only items that are used by 
the military but by American citizens to defend themselves, by 
law enforcement in America, and around the world?
    Ms. Reeves. For some companies, it is very significant.
    Mr. Perry. It is very significant. This technology has been 
around for a fairly--for a long time I think.
    Ms. Reeves. For a long time. I think it might have 
originated with the Chinese.
    Mr. Perry. About the 11th century, right?
    Ms. Reeves. Something like that.
    Mr. Perry. So the question is--and you have already heard 
the list that--which is incomplete, but you heard the list that 
my good friend from New York enumerated about the things that 
are already moved here of military concern.
    But is there any critical military advantage in the items 
listed in Categories I, II, or III, that are proposed to move 
to the CCL that would imperil the United States or where we 
would be giving away a significant and military advantage, 
understanding one of the items that Mr. Zeldin talked about was 
nuclear weapons. Just one of them was nuclear weapons. That is 
already there.
    Ms. Reeves. From what I understand, this was looked at 
very, very closely, and very extensively by experts within the 
government. And what they found is that the items listed to 
transition over to the Commerce Department do not give any 
significant improvements or--yes, exactly, for United States 
security.
    Mr. Perry. I thank the ladies and gentleman. And I have 
exceeded my time. I yield.
    Mr. Bera. Thank you, Mr. Perry.
    If I could just--clarify, the purpose of this hearing is 
not because it is the Trump Administration proposing the rule 
change. I was not in Congress when the Obama Administration was 
proposing this rule change. Otherwise, I would have hoped we 
would have had a similar hearing. It really is: how do we make 
sure, when we are exporting these small arms, they do not end 
up in the hands of the wrong people?
    Again, I think we can all agree that we do not want, as Mr. 
Malinowski was pointing out, to see U.S.-made weapons on the 
front page of our hometown newspaper being used to kill 
civilians. We ought to figure out the best way to prevent that 
from happening.
    With that, I will recognize my colleague from California, 
Mr. Lieu, for purposes of questioning the witnesses.
    Mr. Lieu. Thank you. Thank you to the witnesses for being 
here today. Let me just say for the record I opposed the Obama 
Administration's unauthorized war in Syria. I oppose the Trump 
Administration's unauthorized war in Syria. I would have 
opposed this rule change had I been able to vote on it under 
the Obama Administration. I am going to oppose it now under the 
Trump Administration. This is not a partisan issue. This is 
about saving lives.
    So I have heard my colleagues' statements. I simply note 
there are troops who are stationed in Afghanistan and Syria and 
Iraq on the front lines that are not being killed by nuclear 
weapons, by directed-energy weapons, or by torpedoes. Many of 
them are getting shot. They are being killed by small arms 
weapons.
    And I have this article here that I want to enter into the 
record. It is called Trump's New Gun Export Rules Could Aid 
Terrorists, Tyrants, and Criminals. And it is from CNN dated 
February 14, 2019. If I could enter that into the record.
    Mr. Bera. Without objection.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Lieu. All right. So let me ask some questions. Either 
Mr. Abramson or Professor Waltz, the U.S. has lost weapons that 
we gave to Syrian rebels and other folks that now end up in the 
hands of ISIS; is that right?
    Mr. Abramson. That is correct.
    Mr. Lieu. And this is under the State Department, and would 
have even less regulations and less oversight under the 
Commerce Department; is not that correct?
    Mr. Abramson. That is correct.
    Mr. Lieu. What we actually would want is more oversight, 
not less, if these weapons are ending up in our enemy's hands 
and then they are killing U.S. troops; is not that right?
    Mr. Abramson. That is correct.
    Mr. Lieu. OK. So, Ms. Reeves, I have a question for you. 
You had said that a bunch of these weapons could be brought in, 
commercial retail places. Flamethrowers are one of the things 
here that will be transferred to the Commerce Department, 
right?
    Ms. Reeves. Yes.
    Mr. Lieu. Do you know----
    Ms. Reeves. Up to 20 meters.
    Mr. Lieu. Right. So do you know if Dick's Sporting Goods 
sells flamethrowers?
    Ms. Reeves. No, they do not.
    Mr. Lieu. That is right.
    Ms. Reeves. Not that I know of.
    Mr. Lieu. So there is actually items here that you could 
not actually go to a commercial retail establishment and buy, 
like flamethrowers, correct?
    Ms. Reeves. OK.
    Mr. Lieu. OK. Now, I am going to reference this article we 
entered into the record from February. It says that ``Saudi 
Arabia and the United Arab Emirates, which are wagering a 
brutal war in Yemen, has killed a thousand civilians and pushed 
the country to the brink of famine have''--actually, thousands 
of civilians--``have aggregately requested to buy hundreds of 
millions of dollars of firearms from the U.S.''
    You would not want Congress to know that that is the case, 
that countries are going to buy hundreds of millions of dollars 
of these kinds of weapons? Why would you want to Congress to 
not know that?
    Ms. Reeves. Well, for military weapons, Congress will know 
about that. That is written into the law, and there is the 
potential for including congressional notifications. That is 
something that should be worked out between Congress and the 
Commerce Department.
    Mr. Lieu. So you would not oppose that if there was this 
rule change that Congress would still be notified of sales over 
$1 million?
    Ms. Reeves. I would have to see it.
    Mr. Lieu. OK. Another part of this article was that the 
Philippines ordered $22 million worth of guns from the U.S. 
Professor Waltz or Mr. Abramson, would not Congress want to 
know about that?
    Ms. Waltz. Yes, of course they would. And they should have, 
actually. And in the case that I referred to earlier, one of 
the big problems was that they did not receive the notification 
by error.
    Mr. Lieu. So now that this proposal is to have a bunch of 
these weapons go under the Commerce Department's jurisdiction, 
I would simply note that the head of the Commerce Department, 
Wilbur Ross--do any of you know if he has any military 
experience? He does not have any. He is a banker, and so we are 
going to have a banker make these kinds of decisions, which 
does not make a lot of sense to me.
    I have got another question for either Professor Waltz or 
Mr. Abramson. What was your understanding of the original 
rationale under the Obama Administration for proposing this?
    Mr. Abramson. My understanding was it was just part of the 
broader export control reform initiative, which had this 
process of changing how things were done, and eventually ending 
up with one list that we never got to that point. But the 
arguments that this was never raised--no one raised an alarm 
during the Obama Administration--disregards the fact that it 
was never introduced for us to raise an alarm. We certainly 
were ready and at that point would have raised this. We have 
been waiting for many years knowing this was coming, and so to 
say that somehow this is an Obama era thing, and why did not we 
raise an alarm, really is a false reading of the history.
    Mr. Lieu. Thank you. And we just heard from our colleague, 
Congressman Malinowski, which basically said that he was 
opposed to it. He was in charge of one of the main offices at 
the time.
    Mr. Abramson. Yes.
    Mr. Lieu. I also want to just make 2 requests for the 
consideration of the chair. I do hope that either this 
subcommittee or their House Foreign Affairs Committee will mark 
up the legislation that Congresswoman Torres presented on 
today.
    I also want to offer for the chair's consideration my 
legislation called the Arms Sales Oversight Act. Right now, in 
the U.S. Senate, any member of the Senate can introduce a 
privileged resolution, which would cause a vote on arms sales 
transfers. We do not have the same thing in the House. This 
legislation would simply harmonize that and would request this 
committee to look at that legislation as well and decide what 
we want to do with it.
    Mr. Bera. Great. Thank you, Mr. Lieu.
    Mr. Lieu. And with that, thank you all for being here, and 
I yield back.
    Mr. Bera. All right. Thank you.
    I will recognize Congresswoman Omar for purposes of 
questioning the witnesses.
    Ms. Omar. Thank you, and I hope you all will indulge me 
because I know that many of the people who are watching this 
testimony are like me. They are not really following most of 
the conversations and the kind of questions a lot of my 
colleagues are asking. It seems like a little inside baseball 
conversation.
    So I just want to simplify and sort of ask particular 
examples, and I hope you will give me leniency with time as I 
try to get the public to sort of understand what we are really 
talking about.
    So I will start with you, Mr. Abramson. There was a mass 
shooting in Munich in July 2016 that left 10 people dead, and 
there was a Glock 17 semi-automatic weapon that was used. It is 
my understanding--is it your understanding that this 
administration's policy would make a weapon like that for gun 
manufacturers to export?
    Mr. Abramson. Yes. The semi-automatic weapons would move to 
the Commerce Control under this proposal.
    Ms. Omar. Wonderful. Thank you. And then, as there were 
about 67 of the 77 people killed in the 2011 attacks in Norway 
were killed by gunfire. The shooter was armed by a Ruger Mini-
14 semi-automatic rifle and a Glock 37 semi-automatic handgun. 
Is it your understanding that this administration's policy 
would make a weapon like that for American manufacturers to 
export?
    Mr. Abramson. That is my understanding, yes.
    Ms. Omar. Wonderful. Thank you. And in 2015--I mean, on 
March 15 of this year, there was a shooting at a mosque in 
Christchurch, New Zealand, that left 50 people dead. The 
shooter was armed with 5 guns, 2 of which were semi-automatic 
rifles. Is it your understanding that this policy would make it 
easier for American manufacturers to export that weapon?
    Mr. Abramson. Indeed. That is exactly what we are talking 
about.
    Ms. Omar. OK. So according to Insight Crime, 85 percent of 
the pistols that are used by MS-13 in Guatemala were stolen 
from Guatemalan law enforcement agencies. Is it your 
understanding that this administration would make it easier for 
American manufacturers to sell weapons to Guatemalan police?
    Mr. Abramson. Yes. I mean, there is going to be a process 
either way, but, yes----
    Ms. Omar. Wonderful.
    Mr. Abramson [continuing]. That is the case.
    Ms. Omar. Thank you. And so, Ms. Reeves, I also have a few 
questions following up to that. In your testimony, you talked 
about the need for American gun manufacturers to have an easier 
time selling weapons to NATO and none NATO allies. Norway and 
Germany are our allies. So I can have this be clear for our 
constituents who are watching, is it your position that the 
United States should make it easier to export the kind of 
weapons that were used in the mass shootings that I just 
mentioned in Norway and Germany?
    Ms. Reeves. I do not agree with the word ``easier'' because 
in fact if it does--if these items do move over to Commerce 
Department, I do not think it is going to be easier. It is 
going to be different. It is going to--we are talking about 
right sizing the export control policy, and so it is a 
difference of who is going to be issuing the licenses----
    Ms. Omar. In your testimony----
    Ms. Reeves [continuing]. Because I do not think what we are 
talking----
    Ms. Omar [continuing]. You did say we have to ease the 
process, we have to make it a little easier for these weapons 
to move. So in that, would it make it easier for us to sell? It 
is just very simple. Would it make it easier for us to sell 
these weapons in Norway and Germany?
    Ms. Reeves. The licensing process would still be in place, 
and it would be a very extensive review on the front end for 
national security and human rights issues and foreign policy 
issues. So all of those reviews would still be in place by 
Commerce, State Department, and DoD.
    Ms. Omar. All right. Wonderful. And, Ms. Reeves, in light 
of what happened last week, I find it a little disturbing that 
we are having this conversation after 11 days of the shooting 
in New Zealand, talking to people who manufacture guns, arguing 
for the need to loosen restrictions to import assault rifles.
    But as you mentioned, domestic laws of trading with our 
partners still does not violate the Administration's policy. 
That means that American gun manufacturers will not be able to 
export semi-automatic rifles and assault rifles to places like 
New Zealand, even under these regulations, correct?
    Ms. Reeves. Well, again, I mean, we are not talking about 
loosening controls over exports of firearms. We are talking 
about a different agency that would be in charge of issuing 
licenses. And, again, those reviews would still be in place, 
and there would be reviews after the fact with end use 
monitoring and end use checks by Commerce Department.
    Ms. Omar. In New Zealand, would we still be able to sell 
these semi-automatic weapons with----
    Ms. Reeves. I am not going to speak for the government and 
what they will or will not approve. But my understanding is 
that there is a long history of the State Department issuing 
export licenses for New Zealand.
    Ms. Omar. The reason you are not speaking on it, is it 
correct, is that in New Zealand they had just passed a law that 
prohibits these kind of weapons to be used and sold?
    Ms. Reeves. I think the law was passed after.
    Ms. Omar. Yes. After the shooting happened.
    Ms. Reeves. Right. And so the U.S.----
    Ms. Omar. No. That was----
    Ms. Reeves [continuing]. Government would not issue a 
license, though, if it would violate local law.
    Ms. Omar. Precisely. That is what I was trying to get at. 
Thank you so much.
    And then I will just finish up with asking Dr. Waltz, I 
believe that insisting on human rights standards around the 
world is not just a moral responsibility but a national 
security imperative. You mentioned in your testimony that 60 
percent of the grave human rights abuses investigated by 
Amnesty International involved firearms.
    The country that I come from--Somalia--really is an example 
of what my colleague from New York was talking about. He 
mentioned Congo and other places, but Somalia is a really good 
example of what happens when we just allow firearms to run 
rampant. Is it correct that the Administration's policy would 
make it easier for gun manufacturers to sell to governments 
with patterns of human rights violations?
    Ms. Waltz. I think it would, yes. And if I might add, I 
think the big error in the consideration of this category of 
weapons is not to consider their lethality. It is to treat them 
as though they are simple commercial products that are easily 
available instead of the dangerous items that they are.
    Ms. Omar. Yes. And, last, I just wanted to--I had the 
opportunity to visit Honduras when the elections were happening 
in 2017, and so I know that we have a lot of interactions with 
Honduras, and so I wanted to talk to you a little bit about the 
post-electoral violence in Honduras where dozens of people were 
killed by State security forces, and the military police and 
other Honduras security forces.
    They used semi-automatic weapons to kill a lot of these 
protestors. The post-electoral crisis was one of the main 
drivers of the current refugee crisis that we are seeing from 
Central America. And so I just wanted to have on the record, is 
it correct that the administration's policy would make it 
easier for gun manufacturers to sell weapons to Honduras 
security forces?
    Ms. Waltz. It could very well have that effect.
    Ms. Omar. Thank you so much. And thank you for your 
indulgence.
    Mr. Bera. Thank you. And I will recognize my colleague from 
New York, Mr. Espaillat, for purposes of questioning the 
witnesses.
    Mr. Espaillat. Thank you, Mr. Chairman, ranking member. I 
am proud to be a co-sponsor of H.R. 1134 for multiple reasons. 
First and foremost, I believe it is important that this 
function remains within the State Department.
    Simply, it just sends the wrong message that moving arms, 
export from the Department of State to the Department of 
Commerce sort of like creates the real impression that this is 
a commercial transaction, right? That no human factor is 
involved. That it is going to be so clean and septic that no 
one is ever going to die. It is like, we are trading coffee or 
sugar or something, but in this case obviously it is arms.
    Second, I believe that it is vital that Congress continues 
to conduct strong oversight over these transactions, as we must 
be able to ensure that American interests and priorities are 
upheld. And, obviously, this does not strengthen oversight. I 
believe that it weakens it.
    Finally, I believe that it is vital because of the threat 
of gun violence at home and abroad that we must do all we can 
do to ensure that guns do not fall into the wrong hands. I want 
to address this from a sort of like different angle, right, 
because although semi-automatic weapons are horrible and they 
show their ugly face every so often, and the consequences are 
so tragic as we just saw in New Zealand, it is handguns really 
that are taking the vast number of lives here in the United 
States and in urban cities across the world.
    And as sectors, very radical sectors of urban settings 
begin to radicalize themselves, and begin to act in very 
aggressive and violent ways, I think it is incumbent upon us to 
make it even more difficult for the wrong people to get their 
hands on handguns.
    Now, I sponsored a piece of legislation that is called the 
Ghost Guns are Guns Act, because ghost guns are a way to 
circumvent local measures to restrict access to guns as well as 
3-D printed guns. How do you see this whole debate with regards 
to access to handguns? Is it going to make it easier to access 
handguns, ghost guns, 3-D printed guns, et cetera, across the 
world? Are we going to be the great exporter of death now, not 
just through semi-automatic weapons but also through handguns?
    Anybody that would like to tackle this.
    Mr. Abramson. I am glad you asked this question, because 
this is clearly one of the areas where our export policy has a 
big play on this, because currently ghost guns, or 3-D printed 
guns, are regulated as an export. You put them online and 
anybody can get them. That is what this proposal would change, 
and it is completely alarming. It is completely alarming for 
domestic reasons and for international reasons that you are 
talking about, which is where, we are not having a domestic gun 
control debate when we are talking about the export, but in 
this case we are and it is very important.
    Dr. Waltz has been looking at this a bit more than I have, 
if you wanted to----
    Mr. Espaillat. Dr. Waltz.
    Ms. Waltz. Well, just simply in terms of the regulations 
that are involved. The Commerce Department has, as part of its 
rules, that if any technology is available open source, and 
readily available for anyone, they do not make any effort to 
regulate it. They have asserted that for firearms that migrate 
over to the Commerce Control List they simply will not have any 
control at all over open source instructions for 3-D 
production.
    We have seen slightly different approaches in the previous 
State Department and this State Department, but I think we are 
at a place where right now the possibilities of control for 
export remain in place as long as they are on the State 
Department side of the divide. If they move over to Commerce, 
it is crystal clear that there will be no control.
    Mr. Espaillat. Finally, Mr. Abramson, there is a pending 
court case that prevents the online publication of 3-D printed 
guns. How did this lawsuit come about? And with the transfer of 
some of these items, how will this lawsuit be impacted?
    Mr. Abramson. I am not a lawyer, but my understanding is 
functionally, if this transaction were to happen and it is 
moved over to State Department, there would be no longer any 
control--moved over to Commerce, there would no longer be any 
control in the State Department. So I do not understand why the 
lawsuit would continue. Other lawyers may know better, but 
functionally you would abdicate the suit because there would be 
no purpose for it because it is no longer a State Department-
controlled weapon.
    Mr. Espaillat. Any lawyers in the house? No.
    Thank you so much, Mr. Chairman.
    Mr. Bera. Thank you. I will recognize my colleague from 
Rhode Island, Mr. Cicilline, for purposes of questioning the 
witnesses.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you to 
you and Ranking Member Zeldin for holding today's hearing on 
the importance of export controls to properly regulate the sale 
of defense articles and firearms, and I thank our witnesses for 
being here today and for their testimony.
    Our Nation's export control regime is a critical tool for 
ensuring that the weapons, materials, and technologies that we 
produce for military and commercial purposes, particularly 
those that can inflict deadly harm, do not end up in the wrong 
hands. Recent proposals from the Trump Administration in the 
last year to remove several types of military model firearms 
from the U.S. Munitions List under the jurisdiction of the 
State Department, and move them to the Commercial Control List, 
could jeopardize our ability, in my view, to determine the 
manner in which these weapons may be used and could ultimately 
lead to these weapons ending up in the hands of those who would 
threaten our Nation's security interests.
    And I thank the witnesses for their testimony regarding the 
impact that these policy proposals could have on foreign 
policy, and the suggestions that you have made in your 
testimony and ways that we can strengthen our export control 
system.
    I would like to start with you, Mr. Abramson. In your 
testimony, you mentioned that the State Department requires the 
suspension of sales to countries that violate human rights. 
Could you talk a little bit about some kind of historical 
examples of that and what the implications of this new proposal 
might be on those efforts?
    Mr. Abramson. Certainly. And I think maybe the most 
relevant right now is what we are seeing with the arming of the 
Saudis and the Emiratis as they conduct their war in Yemen. 
There have been concerns about their misuse of U.S.-supplied 
weapons. It is very rare, actually, to hear publicly that the 
Administration has found a violation of human rights, but that 
does seem to be what is happening, and that is what has driven 
a lot of concern about how that misuse of weaponry could occur.
    It is very important that these regulations within the 
current system also provide a chance for the Congress to be 
notified if violations occur, and then actions do occur. My 
understanding is if it is moved to Commerce, that would not be 
the case any longer.
    Mr. Cicilline. Thank you. And, Professor Waltz, would you 
speak a little bit about the relationship that you have 
observed between countries that have security forces that--and 
may not have kind of strong internal controls and that 
relationship to organized criminal activity in those countries, 
and the danger of weapons falling into the hands of, organized 
crime or criminals, and the significance of that, particularly 
in countries with weak internal controls, and how these 
policies might impact those dangerous.
    Ms. Waltz. So, really, you are talking about issues of 
diversion. There may be one authorized recipient, and then 
because of lax controls, as we have seen in Mexico where all of 
the weapons that are lawfully commercially supplied to Mexico 
go to the Army (National Defense Secretariat). They transfer 
them, and then, in the hands of local police, they are used to 
violate human rights, sometimes in the most awful sorts of 
extrajudicial executions and forced disappearances.
    We are seeing something very similar with the Philippines. 
So it is not at all uncommon for the controls locally to be 
lax. If you are thinking particularly about issuing a license 
for a country as a whole and not scrutinizing which units might 
actually receive those weapons, you are multiplying the 
possibilities of abuse.
    Mr. Cicilline. Thank you. And I thank the chairman and the 
ranking member again. You know, as we all know, we have a very 
pernicious gun violence problem in this country. We ought not 
to put forward policies that will in any way export that very 
pernicious problem we have in America to other countries around 
the world and bring less stability and more unrest to places 
all over the world.
    So I thank you for convening this hearing on this very 
important subject, and I yield back.
    Mr. Bera. Thank you. I want to thank the witnesses and all 
the members for being here today.
    And with that, the committee is adjourned.
    Ms. Waltz. Chairman Bera, may I ask for just 1 second?
    Mr. Bera. Yes. I will----
    Ms. Waltz. I know this is----
    Mr. Bera. With some latitude, I will go ahead and give you 
a second. I will then extend the same courtesy to Ms. Reeves 
and Mr. Abramson, if they----
    Ms. Waltz. I realize this is highly exceptional. But I want 
to say that over the weekend I spent a lot of time combing 
through the Commerce Control List looking for items that have 
been transferred, the 600 items--the 600 Series items. And what 
I found were not military lethal weapons.
    What I found were unarmed, unarmored vehicles, non-
submersible, unarmed submarine rescue ships, shelters that were 
specifically to provide against nuclear or biological 
contamination, radar equipment, telecommunications, joysticks, 
circuit boards, rheostats, et cetera. I did not find any 
weapons, any items that were recognizable as lethal weapons.
    The one item I am aware of that has caused concern in the 
human rights community is the equipment to spray tear gas. I 
would really appreciate that being entered into the record. 
Thank you very much.
    Mr. Bera. It will be. Ms. Reeves, I will extend you----
    Ms. Reeves. What I will say to that is one of the--some of 
the items that have moved from the U.S. Munitions List is riot 
control agents, and those have moved over to the Commerce 
Control List.
    I will also just reiterate that, again, State Department 
will have absolute visibility in the review process of license 
applications. If there is any objection or reservation from the 
State Department on issuing a license, that will not be 
overruled, my understanding is, by Commerce Department.
    So those review processes for human rights and unrest in 
certain regions will be reviewed and adhered to.
    Mr. Bera. Great. And with that, this committee is 
adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                


                   OPENING STATEMENT OF CHAIRMAN BERA
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          


         MATERIALS SUBMITTED FOR THE RECORD FROM CHAIRMAN BERA         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         

          MATERIALS SUBMITTED FOR THE RECORD FROM MR. ABRAMSON
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



                                 <all>
</pre></body></html>
